App. No.
-------------------ESTATE OF ESTHER KLIEMAN, BY AND THROUGH ITS
ADMINISTRATOR, AARON KESNER, ET AL.,
Applicants,
v.
PALESTINIAN AUTHORITY, ALSO KNOWN AS
PALESTINIAN
INTERIM SELF-GOVERNMENT AUTHORITY AND
PALESTINIAN LIBERATION ORGANIZATION, ALSO
KNOWN AS PLO,
Respondents.
-------------------APPLICATION TO EXTEND TIME TO
FILE
A PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE D.C. CIRCUIT
-------------------Steven R. Perles
Counsel of Record
Edward B. MacAllister
Joshua K. Perles
PERLES LAW FIRM, PC
1050 Connecticut Avenue, N.W.
Suite 500
Washington, D.C. 20036
(202) 955-9055
sperles@perleslaw.com
September 11, 2019

Counsel for Petitioners

App. No.
-------------------ESTATE OF ESTHER KLIEMAN, BY AND THROUGH ITS
ADMINISTRATOR, AARON KESNER, ET AL.,
Petitioners,
v.
PALESTINIAN AUTHORITY, ALSO KNOWN AS
PALESTINIAN
INTERIM SELF-GOVERNMENT AUTHORITY AND
PALESTINIAN LIBERATION ORGANIZATION, ALSO
KNOWN AS PLO,
Respondents.
-------------------APPLICATION TO EXTEND TIME TO
FILE
A PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE D.C. CIRCUIT
-------------------To the Honorable John G. Roberts, Jr., Chief Justice of the United States
and Circuit Justice for the D.C. Circuit:
Pursuant to Supreme Court Rules 13.5, 21, 22, and 30.3, Petitioners, the
Estate of Esther Klieman, Nachman Klieman, Ruanne Klieman, Dov Klieman,
Yosef Klieman, and Gavriel Klieman, respectfully request that the time in which
Petitioners may file a Petition for Writ of Certiorari in this matter be extended 60
days, until and including December 6, 2019.
The United States Court of Appeals for the District of Columbia Circuit
issued its decision on May 14, 2019 (attached as Exhibit A). The Court of Appeals
denied Petitioners’ timely petition for rehearing and petition for rehearing en banc

on July 8, 2019 (orders attached as Exhibits B and C). Absent an extension of time,
the Petition for a Writ of Certiorari would be due on October 7, 2019. Petitioners
are filing this Application at least ten days before that date (see Sup. Ct. R. 13.5).
The jurisdiction of this Court will be invoked under 28 U.S.C. § 1254(1).
BACKGROUND
Esther Klieman, a 23-year-old American citizen and teacher, was murdered
on March 24, 2002 when she was shot and killed by a terrorist in Israel. The
Petitioners, all American citizens, initiated a lawsuit under the Antiterrorism Act
(“ATA”), 18 U.S.C. § 2331, et seq., which provides a federal cause of action for
American citizens killed or injured. see 18 U.S.C. § 2333(a), “by reason of an act of
international terrorism”, which is defined as an “violent act”, “dangerous to human
life”, which “appear[s] to be intended—to influence the policy of a government by
intimidation or coercion” or to “affect the conduct of a government . . . .” 18 U.S.C. §
2331(1). Petitioners brought suit against the PA and PLO for their roles in
supporting the terrorist attack that resulted in Esther Klieman’s murder, which
occurred during the Second Intifada when dozens of Americans were killed or
injured in terrorist attacks by the Al Aqsa Martyrs Brigade (“AAMB”), among
others.
After the District Court originally denied the PA and the PLO’s first of two
motions to dismiss for personal jurisdiction and a subsequent motion for
reconsideration, holding that under Petitioners’ general personal jurisdiction theory
“both the PA and the PLO have sufficient minimum contacts within the United

States to permit suit here consistent with the Due Process Clause of the
Constitution”, several years of intensive discovery and active trial preparation
ensued. Then the Supreme Court announced a new “essentially at home” standard
for general personal jurisdiction in Goodyear Dunlop Tires Operations, S.A. v.
Brown, 564 U.S. 915, 919 (2011), which overruled the prior test for general
jurisdiction of “continuous and systematic” contacts.
On February 5, 2014, almost a year after the close of fact discovery, the PA
and PLO moved for reconsideration of the district court’s orders on personal
jurisdiction in light of the Supreme Court decision Daimler AG v. Bauman,
although this decision relied on the earlier holding in Goodyear: “[i]nstructed by
Goodyear, we conclude Daimler is not ‘at home’ in California, and cannot be sued
there for injuries plaintiffs attribute to MB Argentina’s conduct in Argentina.” 571
U.S. 117, 122 (2014). While the PA and PLO waited nearly three years to raise the
“at-home” defense on February 5, 2014, the fact discovery deadline expired on April
15, 2013 and the ongoing discovery finally wound down in subsequent months. On
January 6, 2014 the magistrate judge appointed to manage the discovery process
granted Petitioners’ motion to compel the production of information previously
withheld by the PA and PLO, which included documentation of the links between
the PA and PLO and the AAMB, an undisputed terrorist group that killed or
injured many Americans during the Second Intifada. As the “at-home” defense was
not raised until after the expiration of fact discovery, there would be no discovery on
jurisdictional issues under the new state of the law, and the district court mooted

the magistrate judge’s January 6, 2014 production order by granting the motion to
dismiss based upon Daimler. Nonetheless, one of the district court’s central
premises in overruling Petitioners’ waiver argument was that Petitioners had
suffered no prejudice as a result of the late-raising of the “at-home” defense, despite
the expiration of fact discovery. The district court granted the PA’s and PLO’s
motion for reconsideration and Petitioners appealed.
Petitioners argued that the PA and PLO had forfeited and waived their right
to assert a personal jurisdiction defense, among other arguments. On October 3, 2018,
before oral argument at the D.C. Circuit, the President signed into law the
Antiterrorism Clarification Act of 2018 (“ATCA”), Pub. L. 115-253. Under the ATCA,
the PA and PLO’s continued acceptance of financial assistance as specified in that
law or maintenance of “any office headquarters, premises, or other facilities or
establishments within the jurisdiction of the United States” after January 31, 20191
will constitute consent to personal jurisdiction in this and other cases under the
Antiterrorism Act (“ATA”), 18 U.S.C. § 2333, “regardless of the date of the occurrence
of the act of international terrorism upon which such civil action was filed . . . .” ATCA
Sec. 4, Pub. L. 115-253 (emphasis added).
The House Report on the ATCA explains that “[n]o defendant should be able
to accept U.S. foreign assistance while simultaneously dodging responsibility in U.S.
courts for aiding or carrying out terrorist attacks that harm Americans.” H.R. Rep.
No. 115-858, at 6-7. (2018). “If they continue to accept the covered benefits, they will

1

120 days from the law’s passage.

subject themselves to personal jurisdiction in U.S. courts in ATA cases that are
already pending or that may be filed in the future.” Id; accord 164 Cong. Rec. S5103
(daily ed. July 19, 2018) (statement of Sen. Grassley). The new law would apply to
this case on appeal because, as the House Report explains, the provision:
is purely procedural and affects no substantive entitlement to relief, it
takes effect on the date of enactment . . .
H.R. Rep. No. 115-858, at 7. Because the statute passed after Petitioners’ appeal and
shortly before oral argument, Petitioners had no opportunity to take discovery
regarding the PA and PLO’s activity required for the assertion of jurisdiction under
the ATCA.
On May 14, 2019, the three-judge panel of the District of Columbia Circuit
ruled that 1) “[w]e see no abuse of discretion in the ruling on forfeiture, Slip Op. at
8, and 2) that the ATCA did not apply to the PA and PLO. Slip Op. at 22.
Petitioners filed a timely petition for rehearing and petition for rehearing en banc.
This case presents exceptionally important questions regarding national
security and the constitutional powers of Congress.
REASONS JUSTIFYING AN EXTENSION OF TIME
In support of their application for an extension of time to file their
Petitioners, the Estate of Esther Klieman et al. states as follows:
1.

Counsel for Petitioners have a number of upcoming deadlines in other

cases, including one before the Supreme Court, Opati v. Republic of Sudan.
2.

The issues and record in this case are sufficiently complex that

Petitioner requires additional time to prepare their Petition for a Writ of Certiorari.

The passage of the ATCA by Congress during the pendency of the appeal has only
made the constitutional issue still more complex and weighty.
3.

An extension of time to file the Petition will not prejudice any of the

parties because, regardless of whether the extension is granted, the case would not
be heard until the next Term.
CONCLUSION
For the foregoing reasons, Petitioners respectfully request that this Court
grant them a 60-day extension of time, to and including December 6, 2019, within
which to file its Petition for a Writ of Certiorari.
_/s/ Steven R. Perles___________
Steven R. Perles
Counsel of Record
Edward B. MacAllister
Joshua K. Perles
PERLES LAW FIRM, PC
1050 Connecticut Avenue, N.W.
Suite 500
Washington, D.C. 20036
(202) 955-9055
sperles@perleslaw.com
Counsel for Petitioners
September 11, 2019

